TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Progress Has Been Made, but Important
                      Work Must Be Completed to Ensure
                    Timely Identification of Future Leaders



                                           June 26, 2008

                              Reference Number: 2008-10-132




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 26, 2008


 MEMORANDUM FOR INTERNAL REVENUE SERVICE HUMAN CAPITAL OFFICER


 FROM:                  (for) Michael R. Phillips
                              Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Progress Has Been Made, but Important Work
                             Must Be Completed to Ensure Timely Identification of Future Leaders
                             (Audit # 200710044)

 This report presents the results of our review to assess the progress of the Human Capital Office
 (HCO) in developing and overseeing a succession planning program that ensures the timely
 identification of qualified Internal Revenue Service (IRS) candidates for leadership positions and
 the continuity of the IRS leadership workforce. This review is part of the Treasury Inspector
 General for Tax Administration Fiscal Year 2008 Annual Audit Plan coverage under the major
 management challenge of Human Capital and is one of several audits planned to assess how the
 IRS is addressing the Human Capital management challenge.

 Impact on the Taxpayer
 The potential loss of a large number of its leaders within the next several years increases the
 importance of the IRS having a process in place to fill anticipated vacancies quickly and
 effectively. To that end, the IRS has begun development of a leadership succession program.
 However, it needs to complete significant work to ensure that future leaders are identified and
 developed. An effective leadership succession program would enable IRS management to make
 informed decisions to ensure that upcoming leadership vacancies are filled in a timely manner
 with highly qualified leaders who can address the challenges of the future, which will help to
 preserve public confidence in the IRS’ ability to fulfill its mission.
                    Progress Has Been Made, but Important Work Must Be
                  Completed to Ensure Timely Identification of Future Leaders




Synopsis
One of an organization’s most important assets is its leadership. Through creation of a
leadership succession environment, organizations are better able to maintain internal continuity
and stability. The IRS projects that almost 51 percent of its executives and managers will be
eligible to retire by the end of 2010. Leadership succession is critical to the IRS because leaders
in the future will need to 1) be more proactive, 2) embrace change, 3) create and motivate
employees around a vision, and 4) think on a larger scale.
The IRS has made progress in the development of a leadership succession program that will
assist in identifying qualified individuals to fill future leadership positions. Specifically, under
the direction of the HCO, the IRS piloted a new process to provide a standardized, ongoing
method to identify leadership potential in 2006 and took actions to implement this succession
planning process throughout the agency in 2007. In addition, the HCO redesigned leadership
training in 2007 to prepare highly qualified managers for future executive positions and plans to
revise additional leadership training in 2008. Further, HCO management recently created and is
staffing a Leadership Succession Planning program office to provide increased, dedicated
oversight of leadership succession within the IRS.
We agree that additional focus is needed to ensure that the IRS can effectively fill leadership
positions that will become available with the retirement of its current managers and executives.
Significant work needs to be completed to ensure that future leaders are identified and
developed. For example, the IRS does not have a well-documented leadership succession plan
that specifies the key actions that will be taken in this area and how these actions will, when
implemented, work together as a clearly defined strategy. In addition, some levels of
management have not completed the leadership succession program. Also, the IRS has not
determined the overall leadership strength of each operating division for future front-line
manager through executive leadership positions. Further, the IRS has not fully developed
performance measures to assist senior management in assessing whether leadership succession
planning efforts are effective. Until these actions are taken, the IRS will have difficulty
assessing the timeliness of its progress in identifying highly qualified managers to fill upcoming
leadership vacancies and ensure the continuity of its operations.

Recommendations
We recommended that the IRS Human Capital Officer develop a written strategic leadership
succession plan that documents the high-level succession strategy and how the strategy, when
implemented, will work with other human capital efforts. In addition, we recommended that the
IRS Human Capital Officer prepare a plan that specifies the key activities that should be
completed in the short term to ensure that the leadership succession program continues to move


                                                                                                       2
                   Progress Has Been Made, but Important Work Must Be
                 Completed to Ensure Timely Identification of Future Leaders



forward, including actions planned, individuals assigned, responsible management officials, and
methods to monitor and report performance.

Response
The IRS Human Capital Officer agreed with all of our recommendations and provided planned
actions to address them. These actions include developing a strategic leadership succession plan
that documents a high-level succession strategy, developing leadership succession planning
performance measures, and preparing a short-term plan to ensure the leadership succession
program continues to move forward. The IRS Human Capital Officer also provided additional
perspective on several accomplishments in the IRS’ leadership succession program that were not
presented in our draft report. Management’s complete response to the draft report is included as
Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs), at (202) 622-8500.




                                                                                               3
                          Progress Has Been Made, but Important Work Must Be
                        Completed to Ensure Timely Identification of Future Leaders




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 4
          Identification of Future Leaders Has Begun, but Additional Actions
          Will Help Prepare for Upcoming Retirements..............................................Page 4
                    Recommendation 1:........................................................Page 9

                    Recommendation 2:........................................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 13
          Appendix III – Report Distribution List .......................................................Page 14
          Appendix IV – Leadership Succession Review Process Overview..............Page 15
          Appendix V – Management Participation in the Leadership
          Succession Review........................................................................................Page 17
          Appendix VI – Management’s Response to the Draft Report ......................Page 19
        Progress Has Been Made, but Important Work Must Be
      Completed to Ensure Timely Identification of Future Leaders




                    Abbreviations

HCO           Human Capital Office
IRS           Internal Revenue Service
                        Progress Has Been Made, but Important Work Must Be
                      Completed to Ensure Timely Identification of Future Leaders




                                              Background

The mission of the Internal Revenue Service (IRS) is to provide America’s taxpayers top-quality
service by helping them understand and meet their tax responsibilities and by applying the tax
law with integrity and fairness to all. The IRS cannot achieve this mission without a highly
skilled workforce. To provide human capital1 strategies and tools for recruiting, hiring,
developing, retaining, and transitioning a highly skilled and high-performing workforce, the IRS
created a Human Capital Office (HCO) in 2004.
One of an organization’s most important assets is its leadership. Thus, the HCO has focused on
creating a leadership succession program. Succession planning is defined as the ability to
identify qualified candidates for a position prior to the position becoming vacant. By creating a
leadership succession environment, organizations are better able to maintain internal continuity
and stability.
Leadership succession is crucial for the Federal Government and the IRS for two reasons. First,
many of the Federal Government’s leaders will soon be eligible to retire. The Office of
Personnel Management projects that more than 550,000 Federal employees–almost one-third of
the entire full-time permanent workforce–will leave the Federal Government by the end of 2012
(the majority through retirement). The Office of Personnel Management further projects that
nearly 40 percent of all current Federal Government employees will retire by the end of 2016.2
The IRS faces concerns similar to those of the rest of the
Federal Government as it contends with the potential
loss of a significant number of its current leaders by the                The IRS projects that almost
                                                                           51 percent of its executives
end of 2010. As shown in Figure 1, the IRS estimates                      and managers will be eligible
that an ever-increasing number of its leaders will be                      to retire by the end of 2010.
eligible to retire over the next few years. It projects that
almost 51 percent of its executives and managers will be
eligible to retire by the end of 2010.




1
 The term “human capital” is used to describe the skills, abilities, and contributions of the people in an agency.
2
 The Office of Personnel Management projections were based on full-time permanent Federal Government
employees on rolls as of October 1, 2006.
                                                                                                               Page 1
                                                    Progress Has Been Made, but Important Work Must Be
                                                  Completed to Ensure Timely Identification of Future Leaders



                                                Figure 1: IRS Leadership Retirement Eligibility 2006-2010
                                                60%


                                                50%
            Percentage of Current Managers
            and Executives Eligible to Retire




                                                40%


                                                30%


                                                20%


                                                10%


                                                0%
                                                        2006        2007        2008        2009         2010
                                                                            Calendar Year
        Source: IRS Response for Information for Treasury Succession Management Plan.3

A second reason that leadership succession is critical to the IRS is that leaders in the future will
need to 1) be more proactive, 2) embrace change, 3) create and motivate employees around a
vision, and 4) think on a larger scale. All of this might need to be accomplished in less time and
with fewer resources than in the past. The change in focus can already be seen in the IRS with
several transformational projects underway. For example, the IRS has developed a 5-year
strategic plan for enhancing the services it provides to taxpayers. In addition, the IRS is in the
midst of a complex, multiyear, multibillion dollar effort to modernize its technology and related
business processes. Also, the IRS is battling a tax gap,4 as well as implementing and adjusting to
changes in its managerial pay structure.
The IRS has recognized the criticality of succession planning and has acted to identify potential
qualified leaders to ensure continuity and stability. Starting in 2001, initial efforts concerned
developing training programs, known as readiness programs, and focused on the ability to
replace top executives, senior managers, and front-line managers within the IRS. More recent
efforts have expanded succession planning to be more formal and include senior, and in some
instances, front-line, department, and non-bargaining unit management officials.



3
    We did not verify the information provided by the HCO.
4
    The tax gap is the difference between taxes that are legally owed and taxes that are paid on time.
                                                                                                                Page 2
                    Progress Has Been Made, but Important Work Must Be
                  Completed to Ensure Timely Identification of Future Leaders



This audit was conducted while changes were being made to the leadership succession program.
Any changes that have occurred since we concluded our analyses in February 2008 are not
reflected in this report. As a result, this report might not reflect the most current status of the
IRS leadership succession program.
This review is part of the Treasury Inspector General for Tax Administration Fiscal Year 2008
Annual Audit Plan coverage under the major management challenge of Human Capital and is
one of several audits planned to assess how the IRS is addressing the Human Capital
management challenge.
This review was performed at the HCO Leadership, Education, and Delivery Services Division
in Washington, D.C., during the period September 2007 through February 2008. We conducted
this performance audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective. Detailed information on our audit objective,
scope, and methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                             Page 3
                    Progress Has Been Made, but Important Work Must Be
                  Completed to Ensure Timely Identification of Future Leaders




                                Results of Review

Identification of Future Leaders Has Begun, but Additional Actions
Will Help Prepare for Upcoming Retirements
The IRS has made progress in the development of a leadership succession program that will
assist in identifying qualified individuals to fill future leadership positions. This program is
consistent with private sector practices and some Federal Government guidance on human
capital management. Specifically, under the direction of the HCO, the IRS piloted a new process
to provide a standardized, ongoing method to identify leadership potential in 2006 and took
actions to implement this succession planning process throughout the agency in 2007. In
addition, the HCO redesigned leadership training in 2007 to prepare highly qualified managers
for future executive positions and plans to revise additional leadership training in 2008. Further,
HCO management indicated that they recently created and are staffing the Leadership
Succession Planning program office to provide increased, dedicated oversight of leadership
succession within the IRS.
We agree that additional focus is needed to ensure that the IRS can effectively fill leadership
positions that will become available with the retirement of its current managers and executives.
Significant work needs to be completed to ensure that future leaders are identified and
developed. For example, the IRS does not have a well-documented leadership succession plan
that specifies the key actions that will be taken in this area and how these actions will, when
implemented, work together as a clearly defined strategy. In addition, some levels of
management have not completed the leadership succession program. Also, the IRS has not
determined the overall leadership strength of each operating division for future front-line
manager through executive leadership positions. Further, the IRS has not fully developed
performance measures to assist senior management in assessing whether leadership succession
planning efforts are effective. Until these actions are taken, the IRS will have difficulty
assessing the timeliness of its progress in identifying highly qualified managers to fill upcoming
leadership vacancies and ensure the continuity of its operations.




                                                                                            Page 4
                       Progress Has Been Made, but Important Work Must Be
                     Completed to Ensure Timely Identification of Future Leaders



The HCO has made progress in the development of a leadership succession
program
According to HCO management, the two key components for IRS succession planning are
1) IRS readiness programs, including the Candidate Development Program,5 and 2) the
Leadership Succession Review, which is designed to help identify individuals with leadership
capabilities at earlier stages in the IRS leadership career path. Since 2006, the HCO has been
revising various leadership development training courses and has overseen development of the
Leadership Succession Review and its implementation throughout the IRS to varying levels of
management.
The first key component for IRS succession planning is leadership development training,
referred to as readiness programs. The readiness programs are agency-wide programs initiated
in 2001. They represent the IRS’ initial attempt at formally identifying and preparing individuals
seeking leadership positions. The readiness programs are the focal point for developing
high-potential employees for leadership positions and bridging the large developmental gap
between each level of leadership through programs directed at the appropriate IRS Leadership
Competencies.
The IRS has taken some actions and plans to take additional actions to revise leadership
development training to better prepare individuals to compete for front-line through
executive-level management positions. Specifically, during 2007, HCO management redesigned
the Candidate Development Program to place greater emphasis on experience-based training
rather than pure classroom discussion. These changes were completed in 2007 and are being
piloted in the current Candidate Development Program class that commenced on
December 4, 2007. In addition, HCO management stated that they plan to revise additional
readiness programs in 2008. The objective of these revisions is to align the programs with
organizational needs and the redesigned Candidate Development Program. However, no final
plans had been approved by executive management by the end of our fieldwork.
The second key component for IRS succession planning is the Leadership Succession Review.
To better prepare for business continuity at the leadership level and address organizational needs
in a timely, efficient manner, the HCO oversaw the development and implementation of the
Leadership Succession Review process.6
The Leadership Succession Review provides an opportunity for managers to become actively
involved in their development while offering the IRS a standard, ongoing process for identifying
leadership potential at all management levels. Although the Leadership Succession Review
process is relatively new for the IRS, it is a common best practice among leading organizations.


5
  Candidate Development Program training is a formalized training program for individuals seeking senior executive
positions within the IRS.
6
  See Appendix IV for an overview of the Leadership Succession Review process.
                                                                                                          Page 5
                       Progress Has Been Made, but Important Work Must Be
                     Completed to Ensure Timely Identification of Future Leaders



Key objectives of the Leadership Succession Review include:
•      Providing an assessment of current leadership competencies.
•      Providing feedback to all managers on their leadership abilities with respect to the
       21 IRS Leadership Competencies.
•      Identifying individuals for succession planning and assessing their readiness for leadership
       positions.
•      Providing customized development plans for all managers.
With the assistance of an outside vendor, in 2006, the HCO developed the Leadership Succession
Review process and piloted it in three IRS business units to a limited number of management
positions.7 Based on feedback received about the pilot, in March 2007, IRS senior executive
management approved agency-wide implementation of the Leadership Succession Review. To
provide flexibility to each business unit based on its immediate succession needs, the IRS
allowed business units to implement the Leadership Succession Review process to their senior
managers only or to expand implementation to additional, lower level managers. HCO
management informed us that implementation of the Leadership Succession Review to the
varying management levels had been completed in the majority of the business units as of
January 16, 2008, and was still in progress in the remaining business units at the end of our
fieldwork.8
To obtain feedback on the progress of the agency-wide implementation of the Leadership
Succession Review process, we contacted applicable management officials coordinating the
implementation within the Office of Appeals, the Wage and Investment Division, and the
Large and Mid-Size Business Division. One Large and Mid-Size Business Division official
stated that the Leadership Succession Review process was an improvement over the prior
succession planning efforts and required all managers to participate in the process. One Office
of Appeals official cited the Leadership Succession Review as being more formalized and
structured compared to prior succession planning efforts. Further, the Large and Mid-Size
Business Division official stated that the Leadership Succession Review process might integrate
leadership assessment, applicable developmental training, and eventual selection of an individual
for a management position into an effective succession planning process.




7
  The Leadership Succession Review process was piloted in the following IRS offices: 1) Wage and Investment
Division (all front-line and senior managers), 2) Modernization and Information Technology Services organization
(limited to front-line and senior managers in the Application Domain unit), and 3) Small Business/Self-Employed
Division (limited to senior managers only in the Examination function).
8
  See Appendix V for additional details on the management participation level(s) and status of the Leadership
Succession Review implementation in each business unit.
                                                                                                          Page 6
                         Progress Has Been Made, but Important Work Must Be
                       Completed to Ensure Timely Identification of Future Leaders



Due to a significant number of expected retirements and future leadership
challenges, management needs to complete additional actions to help assure
continuity of leadership and to evaluate the success of the leadership succession
program
While the HCO has taken positive steps in implementing an IRS leadership succession program,
additional actions are necessary to ensure that the IRS can fully identify qualified IRS candidates
for future leadership positions and assess its leadership succession efforts. If these actions are
not taken, it will be difficult for the IRS to assess the progress of its leadership succession
efforts, and more importantly, it will be difficult for the IRS to determine whether it can identify
potential future leaders with the skills to address the future challenges in a timely manner.
•      The HCO should prepare a written leadership succession strategy and establish
       performance measures to evaluate the success of its efforts in this area. Best practice
       human capital guidance for Federal Government agencies includes the need for a written
       leadership development strategy, as well as the need to document and track measures of
       success. While the IRS has developed a Human Capital Strategic Plan and a Human Capital
       Strategic Implementation Plan that link its human capital planning efforts with the
       IRS Strategic Plan, these documents do not sufficiently describe the information we believe
       should be included in a documented leadership succession strategic plan.
       The IRS does not have a well-documented leadership succession plan that shows the key
       actions that will be taken in this area and how these actions will, when implemented, work
       together as a clearly defined strategy with other human capital efforts. For example,
       information gathered by management during leadership succession efforts could be used to
       identify potential skills gaps and recruitment needs.9 In addition, HCO management does not
       have a well-documented plan that describes the actions necessary to ensure the timely
       identification of potential leadership needs.
       HCO management recognized the need for a leadership succession plan and originally
       considered creating this document with the help of an outside vendor during development of
       the Leadership Succession Review process. HCO management informed us that they are
       currently working on this type of strategic document and expect to complete it in Fiscal
       Year 2008. However, no plan was available for our review by the end of our fieldwork.
       The IRS also has not fully developed performance measures to assist senior management in
       assessing whether leadership succession planning efforts will result in the timely
       identification of highly qualified managers. HCO management recognized the need for these
       types of measures and provided us with two draft measures related to leadership succession.
       However, these measures had not been approved by the end of our fieldwork. Without
       development and implementation of clear measures linked to succession management, the

9
    We currently have reviews ongoing concerning skills gaps and the IRS’ recruiting strategy.
                                                                                                 Page 7
                    Progress Has Been Made, but Important Work Must Be
                  Completed to Ensure Timely Identification of Future Leaders



    IRS will be unable to fully evaluate the success of its efforts to ensure the timely
    identification of qualified candidates for available IRS leadership positions expected in the
    near future due to retirement.
•   All managerial levels need to complete the Leadership Succession Review. Some levels
    of management have not completed the Leadership Succession Review, and the IRS has not
    fully analyzed the data collected to date to assess each operating division’s future leadership
    positions (from front-line manager through the executive level). Until all management levels
    have completed the Leadership Succession Review process and the results have been
    analyzed against potential managerial vacancies, the IRS will not have a complete baseline
    assessment of its potential leadership needs. In addition, the Leadership Succession Review
    process will be extremely important for IRS staff below the front-line manager level, so the
    IRS can assess its entry-level management needs. HCO management informed us that full
    implementation of the Leadership Succession Review to all management levels in each
    business unit is still in progress and might not be completed until 2010.
•   The HCO should improve the system used to capture information during the
    Leadership Succession Review process related to an individual’s readiness for a
    leadership role. The Leadership Succession Review database should be improved to enable
    IRS management to systemically analyze leadership strength by individual business unit and
    agency-wide. Currently, the information contained in the Leadership Succession Review
    database that tracks the leadership potential of those managers who have completed the
    Review process must be manually analyzed to identify business unit leadership needs.
    HCO management realizes that this is a shortcoming in the current database and has
    requested technology upgrades to the database designed to allow business unit data to be
    systemically rolled up for detailed analysis. However, HCO management informed us that
    this capability was not included in the original design of the Leadership Succession Review
    database and will require additional resources to complete the large amount of programming
    necessary to allow this type of systemic analysis.
    We also believe that the HCO should review the Leadership Succession Review data in the
    future to provide an agency-wide perspective of the leadership strength and potential needs to
    assist in human capital efforts. This will provide senior executive IRS management with an
    overall analysis of how well the IRS is able to 1) fill future leadership positions with
    candidates who have the skills to lead in the future and 2) ensure the continuity of its
    leadership workforce. This analysis should include potential leadership needs within a
    business unit based on retirements and other attrition that might be addressed by highly
    qualified individuals from another IRS business unit. For example, one business unit might
    have a large number of individuals ready for advancement (in comparison to its potential
    vacancies), while another business unit has an insufficient number of individuals ready to fill
    its upcoming leadership vacancies. HCO management informed us that 1) organization-wide


                                                                                             Page 8
                       Progress Has Been Made, but Important Work Must Be
                     Completed to Ensure Timely Identification of Future Leaders



     summary data necessary for this type of analysis are not currently captured and 2) production
     of these data will require a large amount of programming.
     These concerns were also raised by the IRS during our contacts with Office of Appeals,
     Wage and Investment Division, and Large and Mid-Size Business Division officials
     coordinating agency-wide implementation of the Leadership Succession Review process.
     Specifically, these officials stated that the Leadership Succession Review database should be
     improved to provide senior management in each business unit with systemic reports that
     consolidate the results of leadership assessments for their area. In addition, Office of
     Appeals and Large and Mid-Size Business Division officials stated that they are not aware of
     Leadership Succession Review information being shared across business units. Further,
     these officials indicated that they currently follow a manual process to determine who is
     required to participate in the Leadership Succession Review process and who has actually
     completed it.
The potential loss of a large number of its leaders within the next several years increases the
importance that the IRS has a process in place to fill anticipated vacancies quickly and
effectively. An effective leadership succession program would enable the IRS to make informed
decisions on its future leaders, maintain operational continuity, and preserve public confidence in
its ability to fulfill its mission.

Recommendations
The IRS Human Capital Officer should:
Recommendation 1: Develop a written strategic leadership succession plan (separately or as
part of other human capital plans) that documents the high-level succession strategy and how the
strategy, when implemented, will work with other human capital efforts. This plan should
include input from the IRS business units10 and the specific performance measures that will be
used to assess the overall success of leadership succession activities.
        Management’s Response: IRS management agreed with the recommendation.
        HCO management plans to develop, with input from IRS business units, a strategic
        leadership succession plan that documents a high-level succession strategy and how that
        strategy will work with other human capital efforts. In addition, HCO management, in
        consultation with the Office of Program Evaluation and Risk Analysis, plans to develop
        leadership succession planning performance measures. The measures will be presented
        to the IRS Human Capital Board for approval.


10
  The IRS has established a Human Capital Board and sub-councils, consisting of representatives from the
IRS business units, that assist in setting agency-wide human capital management strategy and fostering collaboration
across organizational boundaries to ensure a coordinated approach to IRS human capital plans, policies, and
practices.
                                                                                                           Page 9
                   Progress Has Been Made, but Important Work Must Be
                 Completed to Ensure Timely Identification of Future Leaders



Recommendation 2: Prepare a plan that specifies the key activities that should be completed
in the short term to ensure that the leadership succession program continues to move forward,
including actions planned, individuals assigned, responsible management officials, and methods
to monitor and report performance. These should include (but should not be limited to) the
following actions:
   •     Collecting performance data and analyzing performance measures to assist senior
         management in evaluating the success of leadership succession activities.
   •     Improving the system used to capture data related to the Leadership Succession
         Review to enable managers to perform a systemic review of leadership strength (at the
         business unit level and agency-wide) for comparison to potential managerial vacancies.
   •     Ensuring that the Leadership Succession Review process is expanded to better assess
         IRS leadership strength from the front-line through executive management levels.
   •     Continuing to obtain periodic feedback from the IRS business units and functional
         offices to determine if additional changes can be made to the Leadership Succession
         Review process to make it more effective and efficient.
       Management’s Response: IRS management agreed with the recommendation.
       HCO management plans to develop a plan based on input from IRS executives, an
       HCO formal “lessons learned” review, and our recommendations. The plan will specify
       key activities to be completed in the short term in order to ensure that the leadership
       succession program continues to move forward. The plan will include planned actions,
       individuals assigned, responsible management officials, and methods to monitor and
       report performance.




                                                                                       Page 10
                       Progress Has Been Made, but Important Work Must Be
                     Completed to Ensure Timely Identification of Future Leaders



                                                                                                    Appendix I

          Detailed Objective, Scope, and Methodology

Our overall objective was to assess the progress of the HCO in developing and overseeing a
succession planning program that ensures the timely identification of qualified IRS candidates
for leadership positions and the continuity of the IRS leadership workforce. To accomplish our
objective, we:
I.       Determined the status of the IRS’ leadership succession planning activities.
         A. Interviewed HCO management to determine the roles and responsibilities of the HCO
            related to leadership succession planning.
         B. Reviewed any plans/documentation outlining the HCO’s strategic approach to
            leadership succession, including any performance indicators and coordination with
            IRS business units.
         C. Determined actions taken or planned by the HCO to develop and implement a
            leadership succession program and identified applicable implementation dates and
            responsible officials.
II.      Determined whether implementation of the Leadership Succession Review1 process met
         established goals.
         A. Interviewed applicable HCO management to determine the goals and current status of
            the Leadership Succession Review. In addition, we determined whether the goals of
            the Leadership Succession Review process support the Human Capital Assessment
            and Accountability Framework standard for success related to leadership succession.
         B. Reviewed documentation pertaining to the Leadership Succession Review pilot.
         C. Assessed how the Leadership Succession Review was being tracked, measured, and
            monitored to ensure that it is meeting its goals and objectives.




1
  Leadership Succession Review is designed to help identify individuals with leadership capabilities at early stages
in the IRS leadership career path.



                                                                                                            Page 11
                      Progress Has Been Made, but Important Work Must Be
                    Completed to Ensure Timely Identification of Future Leaders



III.    Determined whether the HCO was making adequate progress in redesigning the
        Candidate Development Program.2
        A. Interviewed HCO management to determine the goals and time periods of the
           redesign of the IRS Candidate Development Program and identified any actions
           taken.
        B. Assessed whether HCO management is effectively coordinating redesign efforts with
           other affected IRS offices.
        C. Identified any changes made to the IRS Candidate Development Program due to the
           HCO leadership succession program.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our audit objective: the HCO’s policies, procedures,
and practices for planning, managing, and monitoring IRS efforts to identify qualified candidates
for leadership positions. We evaluated these controls by interviewing management and
reviewing applicable information.




2
 Candidate Development Program training is a formalized training program for individuals seeking senior executive
positions within the IRS.
                                                                                                        Page 12
                   Progress Has Been Made, but Important Work Must Be
                 Completed to Ensure Timely Identification of Future Leaders



                                                                             Appendix II

                 Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Headquarters Operations and
Exempt Organizations Programs)
Troy D. Paterson, Director
Jeffrey M. Jones, Audit Manager
Thomas F. Seidell, Audit Manager
Margaret A. Anketell, Lead Auditor
Kenneth C. Forbes, Senior Auditor
Marjorie A. Stephenson, Senior Auditor
Donald J. Martineau, Auditor
Carol A. Rowland, Auditor




                                                                                    Page 13
                  Progress Has Been Made, but Important Work Must Be
                Completed to Ensure Timely Identification of Future Leaders



                                                                          Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Deputy Commissioner for Services and Enforcement SE
Commissioner, Large and Mid-Size Business Division SE:LM
Commissioner, Small Business/Self-Employed Division SE:S
Commissioner, Tax Exempt and Government Entities Division SE:T
Commissioner, Wage and Investment Division SE:W
Chief, Appeals AP
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Deputy Commissioner, Wage and Investment Division SE:W
IRS Deputy Human Capital Officer OS:HC
Director, Leadership, Education, and Delivery Services OS:HC:LE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
   Commissioner, Large and Mid-Size Business Division SE:LM
   Commissioner, Small Business/Self-Employed Division SE:S
   Chief, Appeals AP
   IRS Human Capital Officer OS:HC
   Director, Communications and Liaison, Tax Exempt and Government Entities
   Division SE:T:CL
   Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                Page 14
                    Progress Has Been Made, but Important Work Must Be
                  Completed to Ensure Timely Identification of Future Leaders



                                                                                  Appendix IV

   Leadership Succession Review Process Overview

Figure 1 presents the four stages of the Leadership Succession Review process.
                    Figure 1: Leadership Succession Review Stages




               Source: Leadership Succession Review Guide.

Stage 1 places emphasis on the individual. Individual managers are assessed (by themselves and
their managers) on the 21 IRS Leadership Competencies. Then, the supervising manager places
each individual manager that reports directly to him or her onto a Leadership Succession Review
Matrix.
Stage 2 shifts the focus to the organization. Executives and senior managers lead meetings to
discuss possible successors for the managers who report directly to them. The meeting provides
a talent review of individuals and their readiness to fill leadership positions in the future. The
talent review includes sharing strengths and areas for development in the context of the
21 IRS Leadership Competencies. Recommendations for leveraging and developing these
competencies can also be discussed during the Stage 2 meeting.
Stage 3 remains focused on the organization. Executives meet with each manager that reports
directly to them to discuss rolled-up information from Stage 2 meetings. The focus is to provide
aggregate data and trends observed within the various organizational units.
Stage 4 shifts the focus back to the individual. Each individual has a candid, one-on-one
conversation with his or her manager. In this conversation, the manager provides feedback
regarding the data gathered in Stage 1 and the discussions held in Stages 2 and 3. The purpose is
to inform the individual about suggested development for potential future leadership
                                                                                           Page 15
                   Progress Has Been Made, but Important Work Must Be
                 Completed to Ensure Timely Identification of Future Leaders



opportunities. The feedback is intended to serve as a foundation from which to build Career
Learning Plans for all managers.
Throughout the Leadership Succession Review process, managers enter the results of
information gathered into the Leadership Succession Review database. After an individual
completes the Leadership Succession Review process, he or she will be given one of the
following ratings about readiness to advance to a higher level:
   •     Ready Now – This individual possesses the skills, competencies, and experiences
         necessary to advance to the next level of management at this time.
   •     Ready With Development – With the proper mix of training, education, and
         experiences, this individual should meet the qualifications necessary for advancement
         to the next level of management within 24 months.
   •     Not Ready – This individual will require more than 24 months of additional training,
         education, and experience before he or she possesses the skills, competencies, and
         qualifications necessary to advance to the next level of management.
In addition, promising future candidates who are not currently eligible for selection are
monitored by management as individuals to watch for the long term. These are individuals who
exhibit excellent performance in their current roles, but who lack many experiences and
accomplishments to typically be considered as viable candidates. Due to positive performance
trends, the individuals might be considered for accelerated development.




                                                                                        Page 16
                      Progress Has Been Made, but Important Work Must Be
                    Completed to Ensure Timely Identification of Future Leaders



                                                                                            Appendix V

          Management Participation in the Leadership
                    Succession Review

Based on feedback received about the Leadership Succession Review pilot, in March 2007,
IRS senior executive management approved agency-wide implementation of the Leadership
Succession Review. To provide flexibility to each business unit based on its immediate
succession needs, the IRS allowed business units to implement the Leadership Succession
Review using either the full four-stage process or a modified senior-manager-only version of the
Review. HCO management informed us that implementation of the Leadership Succession
Review to the varying management levels had been completed in the majority of the business
units as of January 16, 2008, and was still in progress in the remaining business units at the end
of our fieldwork. Specific details about the business units’ participation in the Leadership
Succession Review process are shown in Figure 1.
       Figure 1: Levels of Participation in the Leadership Succession Review
                                                                                    Status of Leadership
                                            Management Participation                 Succession Review
          IRS Organization                          Level                                 Rollout1
                                         Front-line, Senior, and Department
Wage and Investment Division                                                               Completed
                                         Managers
Small Business/Self-Employed Division    Senior and Department Managers                    Completed
Large and Mid-Size Business Division     Senior Managers                                   Completed
Modernization and Information
                                         Front-line and Senior Managers                    Completed
Technology Services
                                         Front-line, Senior, and Non-Bargaining
Human Capital Office                                                                        Ongoing
                                         Unit Management Officials
                                         Front-line, Senior, Department, and
Appeals                                  Non-Bargaining Unit Management                    Completed
                                         Officials
Tax Exempt and Government Entities
                                         Front-line and Senior Managers                     Ongoing
Division




1
  Completed = HCO management informed us that the business unit had completed the Leadership Succession
Review process as of January 16, 2008.
Ongoing = HCO management informed us that the Leadership Succession Review process was still in progress in
the business unit and was scheduled to be completed by April 30, 2008, for Communications and Liaison and by
July 30, 2008, for the remaining organizations.
                                                                                                       Page 17
                       Progress Has Been Made, but Important Work Must Be
                     Completed to Ensure Timely Identification of Future Leaders



                                                                                      Status of Leadership
                                             Management Participation                  Succession Review
         IRS Organization                            Level                                   Rollout
 Criminal Investigation Division         Senior Manager                                   Completed
 Communications and Liaison              Front-line and Senior Managers                     Ongoing
 Chief Financial Officer                 Senior Managers                                  Completed
 Agency-Wide Shared Services             Senior Managers                                  Completed
 Office of Research, Analysis, and                         2
                                         To Be Determined                                   Ongoing
 Statistics
 Taxpayer Advocate Service               Senior Managers                                  Completed
 Commissioner’s Complex3                 To Be Determined2                                  Ongoing
Source: Our review of applicable documentation and discussions with HCO management officials.




 2
  To Be Determined indicates that the organization is deciding what managerial levels to assess.
 3
  The Commissioner’s Complex includes the Commissioner, Deputy Commissioner for Operations Support
 (Enterprise Portfolio and Project Management and IRS Privacy and Identity Theft), Deputy Commissioner for
 Services and Enforcement (front office only), Equal Employment Opportunity and Diversity office, the Executive
 Secretariat, and Office of Professional Responsibility.


                                                                                                        Page 18
      Progress Has Been Made, but Important Work Must Be
    Completed to Ensure Timely Identification of Future Leaders



                                                    Appendix VI

Management’s Response to the Draft Report




                                                           Page 19
  Progress Has Been Made, but Important Work Must Be
Completed to Ensure Timely Identification of Future Leaders




                                                       Page 20
  Progress Has Been Made, but Important Work Must Be
Completed to Ensure Timely Identification of Future Leaders




                                                       Page 21
  Progress Has Been Made, but Important Work Must Be
Completed to Ensure Timely Identification of Future Leaders




                                                       Page 22
